<html>
<title> - LEVERAGING U.S. FUNDS: THE STUNNING GLOBAL IMPACT OF NUTRITION AND SUPPLEMENTS DURING THE FIRST 1,000 DAYS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


               LEVERAGING U.S. FUNDS: THE STUNNING GLOBAL
                  IMPACT OF NUTRITION AND SUPPLEMENTS
                      DURING THE FIRST 1,000 DAYS

=======================================================================

                          BRIEFING AND HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2016

                               __________

                           Serial No. 114-212

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ___________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-382PDF                     WASHINGTON : 2016                      
            
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  
    
     
     
     
     
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFER

Mr. Ajay Markanday, Director, Liaison Office for North America, 
  Food and Agriculture Organization of the United Nations........     4

                                WITNESS

Beth Dunford, Ph.D., Assistant to the Administrator, Bureau for 
  Food Security, U.S. Agency for International Development.......    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

Mr. Ajay Markanday: Prepared statement...........................     8
Beth Dunford, Ph.D.: Prepared statement..........................    20

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39

 
                  LEVERAGING U.S. FUNDS: THE STUNNING
                     GLOBAL IMPACT OF NUTRITION AND
                      SUPPLEMENTS DURING THE FIRST
                               1,000 DAYS

                              ----------                              


                         THURSDAY, JUNE 9, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order and good 
afternoon to everybody.
    We are here today to examine the global impact of nutrition 
and supplements during the first 1,000 days of life, a period 
from conception to roughly age two, and how we can leverage 
U.S. taxpayer funds to achieve maximum results.
    As you know, this subcommittee has played a key role in 
advocating for an enhanced focus on food security. For the past 
two Congresses, I have been working on authorizing legislation 
for our flagship nutrition and food security program, Feed the 
Future, and worked very closely with Dr. Shah before he left 
USAID, on crafting that legislation.
    I authored the Global Food Security Act of 2015, H.R. 1567, 
which passed the House in April, as did its predecessor bill in 
the last Congress, thanks in large part to the leadership of 
Majority Leader Kevin McCarthy, who has a very personal and key 
interest in ensuring that this legislation becomes law.
    Today's program also follows upon a hearing we did in the 
latter part of 2015 called Food Security and Nutrition Programs 
in Africa, which highlighted the role implementer play on the 
ground as well as a hearing we held last Congress that we 
called ``The First One Thousand Days: Development Aid Programs 
to Bolster Health and Nutrition.''
    For this afternoon's program, we will step back and take a 
look at the role played not only by the U.S. Government, which 
has been pivotal, but also the United Nations.
    Thus, we will be hearing from USAID's Assistant to the 
Administrator Dr. Beth Dunford, who will relay to us remarkable 
results that USAID-led Feed the Future initiative has achieved 
in reducing stunting by emphasizing those first 1,000 days and 
the implication of those results for developing nations that 
are seeking to grow not only their human capital but also their 
economies.
    We will also be briefed first by Ajay Markanday of the 
Innovations Food and Agricultural Organization. Part of our 
ability to leverage U.S. funds depends on our partners who play 
key roles in enhancing food security throughout the globe and 
none is more important in this regard than the FAO.
    I want to highlight that in his statement there is an 
underscored in a key point of this hearing the rationale for 
supporting proper nutrition is not simply a moral imperative 
but it is also economic.
    It has been long established that malnutrition undermines 
economic growth and perpetuates poverty. Indeed, there is 
perhaps no wiser investment that we could make not only in an 
individual person but also in the economies of the developing 
world than to concentrate on ensuring that sufficient nutrition 
and health assistance is given during those first 1,000 days of 
life.
    Children who do not receive adequate nutrition in utero are 
more likely to experience lifelong cognitive and physical 
deficiencies, due in particular to stunting. UNICEF estimates 
that one in four children worldwide are stunted due to a lack 
of adequate nutrition.
    The African Union Commission's Cost of Hunger in Africa 
study estimated that the economic costs associated with child 
under nutrition are substantial, from 2 percent to 16 percent 
of the gross national product in several African nations.
    For instance, this cost was estimated at $4.7 billion in 
Ethiopia in 2000 alone, which is equivalent to 16 percent of 
Ethiopia's GNP.
    Conversely, by helping women throughout pregnancy receive 
adequate nutrition and supplemental micro nutrients such as 
iodine, Vitamin A, and folic acid, and ensuring that they are 
well nourished by nursing, children and mothers thrive.
    To give one example, studies indicate that if we provide 
women of childbearing years with the recommended dose of folic 
acid during the 3 months prior to pregnancy and during the 
first month of pregnancy, the risk of autism spectrum disorder, 
or ASD, is reduced by a whopping 40 percent.
    We do look forward to hearing some of the results that 
USAID has been able to accomplish with regard to reducing 
stunting, again, attributable to the Feed the Future program.
    It is also my hope that as we look now to the next 
administration that we will be able to enshrine food security 
and nutrition as a firmly planted cornerstone of U.S. policy.
    Consider how President Bush beginning in 2002 had the 
initial foresight to elevate the import role of food security 
in U.S. foreign policy, especially in Africa, via the 
Initiative to End Hunger in Africa, or the IEHA, which was 
funded through development assistance and implemented through 
USAID.
    At the same time, the Millennium Challenge Corporation 
began making substantial investments in agriculture-led 
economic growth programs, particularly in Africa.
    This is a policy course that President Obama has continued 
and built upon with the Feed the Future initiative instituted 
at the G8 meeting in Italy in 2009 when the countries of the 
world came together to ensure that we cultivate resiliency in 
food insecure countries so they can withstand the next food 
crisis such as what we saw in 2007 to 2008, a crisis that Dr. 
Beth Dunford was on the front lines in battling.
    It is my hope and the committee's hope that the next 
administration, whomever the President may be, will build upon 
this and continue that focus, for by addressing nutrition 
during the first 1,000 days of life we can help ensure that the 
next 25,000 days, or whatever the number our Creator has 
allotted for that individual, are filled with good health.
    I would like to now yield to my good friend and colleague, 
Ranking Member Bass, for an opening statement.
    Ms. Bass. Thank you, Mr. Chair.
    I also want to thank Mr. Markanday and Dr. Dunford for 
appearing before the subcommittee this afternoon, and I look 
forward to hearing their perspective and testimony on what is 
one of the most important issues facing the developing and 
developed world.
    As I have said in the past, the U.S. has long been a leader 
in the realm of food aid internationally and over the years has 
contributed consistently and innovatively regarding the global 
challenge.
    President Obama established the Bureau of Food Security in 
2010 and by doing so demonstrated the high priority that we 
place on addressing the issue of global food insecurity.
    This key decision by the Obama administration has led to 
greater coordination amongst government agencies and leveraged 
strategically government efforts to combat global hunger and 
food insecurity by not only working with recipient governments 
but also with international organizations and other donors.
    Feed the Future stands out in this effort to combat some of 
the most challenging examples of food insecurity worldwide.
    I believe one of the reasons that the U.S. has led so 
effectively in this arena is the focus that the government 
places on strong partnerships with recipient countries.
    Also, the Feed the Future program has worked with not only 
host governments, but also the private sector and, critically, 
local civil society, I believe, this inclusive approach is the 
key to the initiative's effective implementation.
    Addressing food security challenges effectively also means 
addressing the challenges facing newborns in countries plagued 
with food insecurity.
    In this regard, I look forward to hearing the testimony of 
Dr. Dunford regarding progress and ongoing challenges regarding 
stunting. Of particular interest to me are identifying what 
approaches work successfully and whether success in one region 
of Africa, for example, can be duplicated in another region.
    Also, I would like to know what role capacity training has 
played in these efforts. I would also welcome statistical 
information regarding successes and challenges faced by 
countries in both Africa and Asia and how our country in 
concert with the host countries, the international community, 
and donors can help address such challenges.
    Thank you.
    Mr. Smith. Thank you very much, Ms. Bass.
    I would like to now point out that pursuant to committee 
rules we will suspend the hearing and convene an official 
briefing in its stead to receive a statement from Dr. Ajay 
Markanday of the Food and Agricultural Organization.
    He is the director of its liaison office for North America 
and is an expert in sustainable agricultural development with 
over 35 years of experience in over 20 countries, having served 
in a number of international development agencies. He is 
uniquely positioned and has a keen understanding of the 
importance of leveraging international organizations to further 
global development goals and initiatives.
    He has earned many accolades and commodations for his 
efforts in promoting global food and nutrition security and 
most recently received and was recognized by the Prime Minister 
of Cambodia for his work on the country's agricultural and food 
security program.
    Mr. Markanday, the floor is yours.

 STATEMENT OF MR. AJAY MARKANDAY, DIRECTOR, LIAISON OFFICE FOR 
NORTH AMERICA, FOOD AND AGRICULTURE ORGANIZATION OF THE UNITED 
                            NATIONS

    Mr. Markanday. On behalf of Dr. Graziano da Silva, the 
Director-General of the United Nations Food and Agricultural 
Organization, I would like to thank Chairman Royce, Chairman 
Smith, and Ranking Members Bass and Engel for the opportunity 
and honor to brief you this afternoon on the work the FAO is 
undertaking to support the efforts of the United States in the 
fight against global hunger and malnutrition.
    I would also like to acknowledge USAID, an extremely valued 
partner of FAO and, especially, Dr. Beth Dunford and the Feed 
the Future team who are staunch advocates for the principles of 
Chairman Smith's Global Food Security Act.
    Chairman Smith's contribution, passion, and unyielding 
drive in advancing the health and nutrition needs of children 
worldwide is at the core of what brings us here today.
    From the beginning, FAO has been inspired and supported by 
generous contributions from the people of the United States. 
The United States and FAO have a historic relationship and the 
U.S. was instrumental in its creation and leadership.
    In 1943, President Franklin Roosevelt convened 40 countries 
in Hot Springs, Virginia to charter an international 
organization dedicated to global food nutrition and 
agriculture.
    So, Mr. Chairman and honorable members of the subcommittee, 
FAO owes a tremendous debt of gratitude to your country's 
vision for a world free from hunger.
    To this day, America's vision remains at the heart of FAO's 
charter. Chairman Smith's Global Food Security Act and its 
significant bipartisan sponsorship further demonstrates U.S. 
leadership where no child is left malnourished.
    I hope that the U.S. further leverages the longstanding 
relationship and partnership with FAO in advancing the act's 
worthy principles.
    As background and to further underscore the significant 
relationship between the U.S. and FAO, it is important to note 
that the U.S. is not only FAO's founding member country but 
also our largest resource partner.
    The United States contributes the lion's share of the FAO 
budget and is second only to the European Commission in 
voluntary contributions.
    In addition to significant financial contributions through 
USAID, USDA, and other U.S. agencies, FAO receives valuable in-
kind contributions from the U.S. through scientific and 
technical expertise.
    U.S. expertise had been instrumental in shaping key FAO 
policies and programs at the global and country levels. Major 
areas of cooperation include food and nutrition security, 
emergency assistance and resilience, food safety, and 
sustainable agricultural production and natural resource 
management. There is ample scope for expanding and deepening 
our collaboration in nutrition.
    And now I will turn to the concerted efforts of FAO in the 
area of global nutrition in the first 1,000 days.
    Ending hunger, food insecurity, and malnutrition is our 
director general's highest priority. In 2014, FAO co-hosted the 
second international conference in nutrition where 170 
countries made the noble commitment of reducing all forms of 
malnutrition under the Rome Declaration.
    Following the Declaration, I am pleased that the United 
Nations General Assembly has unanimously endorsed the Decade of 
Action for Nutrition earlier this year.
    Supporting proper nutrition is not simply a moral 
imperative but, it makes economic sense. Malnutrition 
undermines economic growth and perpetuates poverty with 
productivity losses to the individual estimated at greater than 
10 percent of lifetime earnings.
    To the economy, losses are high and in Africa and Asia are 
estimated at over 11 percent per annum of GDP. Yet, targeted 
investments in promoting nutrition, providing micro nutrients, 
and supporting community-based programs targeted at children 
rank among the highest of all investments.
    Improving nutrition in the first 1,000 days must be backed 
by sustainable private-public partnerships. In this regard, FAO 
values the role of the private sector and recognizes its 
essential contribution to ensure nutritional quality and food 
safety, investment to infrastructure and storage, and 
improvements in supply chains.
    The private sector is our key ally under our private sector 
strategy. The first 1,000 days in a child's life are critical. 
Malnutrition leads to infection and stunted growth, resulting 
in poor physical and cognitive development, as Chairman Smith 
has just pointed out.
    However, malnutrition during this period can effectively be 
addressed through targeted investments, proper proteins and 
vitamins, and especially through diversified diets.
    FAO's unique comparative advantage and strength amongst 
development partners includes the ability to convene 
governments and other actors, the sharing of information and 
best practices, the development of effective policy dialogue, 
the development and dissemination of norm standards and 
guidelines, and the delivery of technical assistance at the 
primary school as well as the university levels.
    The key elements of FAO's comprehensive strategy on 
nutrition include increased knowledge in scientific exchange, 
diversified food systems, the importance of food intake and 
food safety, and creating an enabling environment by main 
streaming those policies into national agricultural and 
investment plans.
    FAO has partnered with USAID in many spheres, especially 
under FANTA to monitor programs, progress in outcomes and has 
developed indicators.
    Additional collaborative efforts with USAID and Feed the 
Future include field-based trials in countries like Bangladesh 
and Cambodia, where I served, and Zambia.
    A good example is Bangladesh, where FAO leveraged financing 
from USAID to leverage other financing from the European Union.
    These activities are now being scaled up as part of the 
USAID--FAO Meeting the Under Nutrition Challenge program with 
main-streaming this program into national food policy and 
country investment plans.
    FAO also works closely with USAID in support of the African 
Union's new partnership for African development in building 
capacities of the 50 member states of the African Development 
Bank to main-stream nutrition and agriculture investment plans 
through the CAADP Nutrition Capacity Development Initiative.
    Mr. Chairman and honorable members, in conclusion, FAO is 
an international organization and is at the service of its 
members. We are both an instrument of the collective policies 
and the goals of our member governments.
    As I have noted, the United States is a leading member and 
partner of FAO. Our history is longstanding and your 
contribution is unmatched. The U.S. should expect results from 
FAO to be a collaborative instrument in furthering the goals of 
the Global Food Security Act.
    We have 197 member countries and organizations, and offices 
and programs in 130 countries. Therefore, FAO can be 
strategically leveraged by the United States as a partner to 
collaborate directly with our members who achieve far-reaching 
positive goals, results, and progress.
    For example, the last world food summit hosted by the FAO 
brought together 5,000 delegates from 180 countries including 
60 heads of state. During this summit, $20 billion was pledged 
to end world hunger.
    FAO has the political neutrality and mandate to globally 
raise levels of nutrition and standards of living and FAO can 
be instrumental in articulating and fostering your global 
health, nutrition goals, and initiatives.
    Chairman Smith, Ranking Member Bass and members of the 
subcommittee, recognizing that your oversight extends to 
international organizations, I leave you with one final thought 
for your consideration and for this I am removing my FAO cap 
and doffing my international civil servant cap.
    In addition to the FAO, I have worked with and within many 
international organizations globally. I cannot think of a 
single one that, like FAO, which the United States does not 
contribute to and invest in generously.
    In fact, the United States of America usually invests to 
the vast majority of other countries. These international 
organizations to which the U.S. belongs and invests can and 
should be effective and responsive instruments in promoting 
sound global policy be it for health, nutrition, trade, 
economics, or wherever your priorities exist.
    For many countries that have limited national resources, 
they effectively use international organizations as vehicles to 
leverage their policy agenda and goals.
    I submit for your consideration that the U.S. can be even 
more effective in your strategic engagement with these 
organizations and enrich new investments substantially.
    Demand return on your investments. And on that note, I will 
now replace my FAO cap and pledge to this subcommittee and the 
entire U.S. Government and citizens that as the director of FAO 
for North America you have my highest assurances that I will 
strive every day to deliver results and return on your 
investment on behalf of FAO.
    Once again, Chairman Smith and members of the subcommittee, 
I thank you for the honor and privilege of briefing you today.
    [The prepared statement of Mr. Markanday follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Smith. Mr. Markanday, thank you for your excellent 
statement, even more so your extraordinary leadership. And 
without objection, your full statement will be made a part of 
the record.
    I just want to say, I know that the rules preclude us 
asking a number of questions. But I would want to thank you for 
underscoring the importance of the Decade of Action on 
Nutrition, and it does coincide, I believe, in a very good way, 
a synergistic way with the post-2015 Sustainable Development 
Goals so that--but it is a matter of prioritization with the 
SDGs.
    There is so much in the SDG mandate that nutrition could 
easily get lost. So having that decade of action, having your 
leadership, of course, having Dr. Dunford's leadership and the 
leadership of the U.S. Feed the Future initiative hopefully 
will keep this front and center because this is a winnable 
initiative.
    And every time we win we collectively--the international 
community, women, children, and families' lives are enhanced. 
It can't be said enough, and Dr. Dunford says in her statement 
that in 2011, 45 percent of child deaths, 3.1 million children, 
were attributable to undernutrition.
    That is, in a way, a scandal that we haven't even done more 
to eviscerate that causation of death, which we could do, I 
believe. Thanks also for recognizing the generosity of the 
American public. We often get criticized that on a per capita 
basis we don't provide enough. Very often not on the ledger or 
airlift, what our military does, working side by side with 
USAID and NGOs.
    I myself and certainly Piero, we have been to the typhoon 
that took place in the Philippines and the military was there 
working side by side and if they were not there many more lives 
would have been lost.
    And there was the USS Abraham Lincoln and a few years 
before that when the tsunami hit Banda Aceh and other areas 
they were there saving lives and none of that ever gets 
calculated in terms of costs.
    So I do believe the American people are very generous, as 
are other countries, and we do, as you pointed out, we need to 
demand accountability. We do do oversight. We need to do more 
of it and I thank you for ensuring that your money that you are 
allotted from multiple sources is well spent on behalf of 
people.
    I would like to yield to my friend. Thank you. Do you have 
any other comments you would like to make? Because your 
statement was excellent.
    Mr. Markanday. Thank you very much, Chairman Smith, and I 
am so happy that you have underscored a lot of the things that 
I did include into my briefing in terms of the Decade of Action 
on Nutrition and how we should leverage more out of our 
international organizations. I think that is terribly important 
for results.
    I think the only point that I would like to make that the 
FAO was, as I said, under U.S. leadership established in 1945. 
The world has changed, and we, as an organization, recognize 
that we have to be fit for purpose for the future and the 
challenges that are coming.
    So I think with your leadership we are looking to being 
that type of an organization.
    Mr. Smith. Thank you. And Mr. Markanday, also--and you'll 
never have this problem but compassion fatigue is a problem we 
have to be careful about.
    I will never forget after the first drought--man-made 
drought by Mengistu in Ethiopia everybody was on board. We are 
the world. When it hit the second time it was like been there, 
done that, got the T-shirt. People were not interested. It was 
horrible because people were dying.
    So, again, you're part of the leadership that ensures that 
these individuals are never forgotten. The emphasis on not just 
saving lives, but enhancing your ability to get a better 
education and to go on to raising more dollars by way of their 
capabilities for their families, it's a win-win-win all over 
the place. So thank you again for your leadership.
    Thank you. We would like to now resume our congressional 
hearing and again thank Mr. Markanday for his appearance here 
today and his insights.
    We would like to welcome to the witness table Dr. Beth 
Dunford, who is the Assistant to the Administrator in USAID's 
Bureau for Food Security as well as Deputy Coordinator for 
Development for Feed the Future, the U.S. Government's global 
hunger and food security initiative.
    In this dual role, Dr. Dunford coordinates implementation 
of Feed the Future across the U.S. Government, a whole of 
government approach, oversees its execution, reports on 
results, and leads engagement with the external community to 
ensure that food security remains high on the development 
agenda.
    Dr. Dunford also oversees USAID's technical and regional 
expertise focused on improving food security to sustainable 
reduce hunger, poverty, and undernutrition.
    A career Foreign Service Officer, she most recently served 
as Director of USAID's Mission in Nepal and has also served in 
Ethiopia, Afghanistan, and a number of roles in Washington. 
Please proceed as you would like.

      STATEMENT OF BETH DUNFORD, PH.D., ASSISTANT TO THE 
   ADMINISTRATOR, BUREAU FOR FOOD SECURITY, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Dunford. Thank you. Good afternoon, Chairman Smith, 
Ranking Member Bass, members of the subcommittee. Thank you for 
inviting me to speak today and thanks to all of you for your 
continued support and leadership on nutrition and food 
security.
    I also want to thank Mr. Markanday for that presentation. 
We are grateful for the FAO's close collaboration with Feed the 
Future and it is wonderful to hear Mr. Markanday reaffirm just 
how seriously the FAO takes nutrition.
    In particular, I would like to express my gratitude to you, 
Chairman Smith, for introducing the Global Food Security Act, 
which shows the U.S. Government's strong bipartisan commitment 
to reducing global hunger, poverty, and malnutrition.
    The Global Food Security Act has passed both the House and 
the Senate and we are looking forward to working with the 
subcommittee members and Congress to pass it into law.
    And as Feed the Future's Deputy Coordinator for 
Development, I am honored to be able to talk to you today about 
the important role the U.S. Government is playing in the fight 
against global hunger, poverty, and malnutrition, particularly 
during the critical 1,000-day window between pregnancy and a 
child's second birthday when good nutrition matters the most.
    Nutrition bridges many areas. It affects human health, 
development, economic growth, agriculture, education and 
resilience, and because of this Feed the Future has taken a 
comprehensive approach to undernutrition.
    And this approach has contributed to substantial progress 
on food security and nutrition globally. Farm productivity is 
on the rise among much of the global south. Poverty rates and 
hunger have fallen dramatically in many of the countries where 
we work.
    Growth rates in agriculture are among the highest in recent 
history, and preliminary data demonstrate that we are on track 
to see poverty and stunting reduced by an average of 20 percent 
across the areas where Feed the Future works by 2017.
    Just one example of this is Cambodia, where from 2010 to 
2015 the prevalence of stunting fell by 23.3 percent across the 
areas where Feed the Future focuses its efforts.
    And while we have seen impressive gains over the past 5 
years, particularly on stunting and nutrition, there is still 
much more to be done.
    We know that 795 million people are still undernourished 
globally, and that is 795 million too many.
    Undernutrition, particularly early in life, impairs 
cognitive, socio-emotional, and also motor development. It 
leads to lower levels of educational attainment, productivity 
and lifetime earnings, and ultimately it slows economic growth.
    For example, we know that by reducing stunting by just 20 
percent can lead to an 11 percent increase in incomes. We also 
know that relatively simple interventions such as increased 
consumption of vitamin-rich orange-fleshed sweet potatoes can 
have a transformative impact on people's lives, especially 
children's.
    Our interventions in nutrition are a smart investment in 
building human capital and shared prosperity. Every dollar 
spent on improved nutrition yields up to $18 in returns.
    But to accelerate progress on poverty and hunger, and to 
ensure robust inclusive economic growth for years to come, we 
must do more to end malnutrition.
    Significant reductions in stunting take time. But given the 
solid collective results over the past decade, and the global 
community's commitment to solving these issues, I am optimistic 
that we can work together across sectors, across disciplines, 
and we will see the elimination of malnutrition.
    And while it's clear that Feed the Future can and has done 
a lot, we know that we will never be able to eradicate global 
hunger, poverty, and undernutrition on our own.
    To succeed, we have to have additional partners committed 
to transforming agro-food systems so we can deliver benefits 
like good nutrition for years to come.
    But impact like this does take funding, and to pay for it 
all we must develop a new international framework for financing 
agriculture, food security, and nutrition, one that goes beyond 
donor assistance to better leverage resources from all sectors.
    So going forward, Feed the Future will intensify our 
partnerships--and we have been intensifying our partnerships--
with: developing country governments to expand ownership and 
create environments that allow our investments to take root, 
multiply, and thrive; the private sector to bring market 
access, cutting-edge business practices, and innovative 
insights to the development table; and financial institutions 
to spur greater investment in small and medium enterprises and 
small-holder farms, ensuring inclusive sustainable economic 
growth on a macro level.
    And civil society is also important. They help to amplify 
our message, increase transparency, and make sure that 
vulnerable groups are protected and our investments reach our 
targeted population.
    By bringing partners together, to focus efforts on 
agriculture and nutrition, Feed the Future and the U.S. 
Government have achieved a great deal. Our approach is working 
and we can and will leverage it to do much more.
    And that is why Feed the Future will continue to forge new 
partnerships and strategically steward our resources to 
multiply our impact and build a more food- and nutrition-secure 
future.
    One of the most important partners we have in this is the 
United States Congress, and I want to thank you again for your 
leadership on this issue.
    I am grateful for the opportunity to speak with you today 
and I welcome any questions, comments, and suggestions you 
might have.
    [The prepared statement of Ms. Dunford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much for your excellent 
testimony. Without objection, your full, very extensive 
commentary will be made a part of the record.
    And just a few opening questions and I yield and to my good 
friend, Mr. Clawson, and then maybe have some follow-up 
questions at the end.
    You have pointed to some excellent results in Cambodia, 
Honduras, Bangladesh, for example. I know when we spoke 
privately you talked about what was going on in Nepal.
    Ms. Dunford. Right.
    Mr. Smith. Which you might want to elaborate even further 
on, particularly that way of--I know it's not a food security 
issue but that great birthing technique that you were meaning 
to elaborate on when we last met, particularly with regards to 
the umbilical cord, which saves lives.
    But Nigeria is one of the worst of the worst when it comes 
to the loss of childs' lives both neonates--newborns and unborn 
children--and I am wondering if the new government has been 
responsive to initiatives.
    Of course, they are challenged with Boko Haram. We all know 
that. I know that children in the three northern states 
particularly are probably even more malaffected than anyone 
else. But if you could speak to some of the other African 
nations but particularly Nigeria.
    Ms. Dunford. Great. So I wanted to highlight, as you 
mentioned, chlorohexidine which is an important intervention 
where it was based on years of research that USAID funded in 
Nepal and in partnership with a local private sector company 
that we also help to support.
    The government really took on this initiative. It's a gel 
that you put on the umbilical cord after birth to keep the 
umbilical cord sanitary to prevent against tetanus.
    And as we know, as child mortality rates are decreasing, 
neonatal mortality rates are often the most difficult to really 
start seeing great movement on. And this really can reduce the 
infant mortality rate by 23 percent just by use of this one 
gel. It costs pennies to distribute and in Nepal we are working 
to have it disseminated across the country.
    A network of 48,000 community health volunteers have taken 
up this effort under government leadership and are working to 
get it out to the farthest reaches of way up in the mountains, 
way out into the plains.
    It is very easy to apply. It is something that these 
community health volunteers, when they work with pregnant women 
to inform them of best practices going forward to have a 
healthy pregnancy, it's something they can give to the women.
    There is one person who is always present at a delivery, 
and it's the mother. So the mother carries the packet around 
with her and it's just one application that anyone can do. So 
that is a very, very important intervention, and I do know the 
Government of Nigeria has gone to Nepal to receive training and 
to better understand how chlorohexidine works and how they 
might integrate it into the health system.
    How far it has actually gone I am not sure. But it is one 
of several governments that have learned from Nepal in this 
effort.
    And we are looking at working with the African Union, which 
has shown tremendous leadership on the issue of food security 
and nutrition and we are really working to highlight what we 
are calling champions of change, to work with partner country 
governments that are demonstrating the type of leadership by 
putting their own funds into agriculture and food security, by 
putting in place the right policies that can really allow space 
for private sector investment to further fuel the agricultural 
transformation and to fuel investments in nutrition. And by 
elevating those leaders that are doing a good job, they are 
really incentivizing others to follow suit and we are hopeful 
that Nigeria will go along that path as well.
    Mr. Smith. You mentioned the importance of faith-based 
organization and private sector. Are you finding a lot of buy-
in from the faith-based community when it comes to these 
initiatives? Are they included in a robust way by the 
governments? I know our own seeks and reaches out. But are the 
other governments doing it as well, particularly in the 19 
countries where we are--we're involved.
    And secondly, if I could just ask you with regards to the 
post-2015 SDGs and, of course, the Decade of Action on 
Nutrition. I am always concerned when there are so many 
aspirational goals, targets, indicators and the three-pronged 
approach with the post-2015 that there is so much people then 
don't prioritize and do as much as they could, particularly on 
such a life-changing, life-enhancing initiative like Feed the 
Future.
    To ensure that we don't get lost in other good things but 
they get crowded out by trying to do it all. Your thoughts on 
how we can keep this prioritized going forward between now and 
2025 with the decade and also 2030 with the post-2015.
    Ms. Dunford. Thank you. Thank you, Chairman, for those 
important questions.
    I wanted to touch, first, upon faith-based organizations, 
which are incredibly important to Feed the Future and its 
implementation.
    As we work with civil society, faith-based organizations 
are a critical part of that throughout all of the 19 focus 
countries where we work on many, many different levels.
    Just to provide one example, in Zambia, Catholic Relief 
Services is out there working specifically to deliver nutrition 
messages to first 1,000 day mothers and also to first 1,000 day 
mothers in their communities, helping them to understand what 
types of nutrition they need to ensure that they take advantage 
of this really critical window and also making sure they have 
access to those nutritious foods as well.
    I wanted to talk also about the SDGs, and I think you're 
right. The SDGs are--it is a very important global moment where 
world leaders came together to agree on how important 
development is and codify that.
    As we know, SDG 2 is most focused on hunger. We think it's 
a really important way to elevate the work that we all think is 
so important.
    There are a lot of competing priorities out there. I like 
to say that hunger and food security weaves itself through all 
of the SDGs and is central to everything that we can and will 
do.
    I think in order to help us raise the profile of this 
effort are the results that we are starting to see come in. 
With the right types of investment we can see change and I 
think that is as motivating a factor as anything to keep this 
at the top of the policy agenda.
    Mr. Smith. Thank you.
    Ms. Bass.
    Ms. Bass. Thank you very much for your presentation.
    You know, in many ways we are talking about a difficult 
subject but in many ways you are filled with a lot of good news 
too in terms of practices that are really making a difference.
    And I wanted you to expand on that. So a few things in 
terms of Feed the Future, I have traveled to a couple of 
countries and have seen Feed the Future in action, specifically 
though as it relates to farming.
    In your written testimony, you have a couple of examples 
that I wanted you to elaborate on. One was Chicken Choice in 
Kenya. And so I wanted to know if you could give a couple of 
examples of a Feed the Futures best practices that weren't very 
specifically agricultural.
    Ms. Dunford. Thank you, Ranking Member Bass, for that 
question and also for your support of the Global Security Act.
    Chicken Choice is one of my favorite examples which I think 
is why it made it into the testimony. It's really a nice 
example of someone who worked in a chicken factory who saw that 
chicken parts were being sort of discarded and these poor women 
who had no other choice, no other avenues, were coming to dig 
through the trash to find these parts in order to have 
something to feed their children that was nutritious. And so he 
started a product made from these by-products and started 
expanding to different locations throughout Kenya. He ended up 
with nine locations but had difficulty reliably transporting 
this very nutritious but low-cost product to these nine 
locations. We helped him buy a refrigerated truck, as simple as 
that. Given that transport can be dicey, this really helped him 
expand his business and get this low-cost nutritious food out 
to many more people.
    So I am glad you like that example. That's the type of 
ingenuity and innovation that we need to see from the private 
sector that we are trying to support.
    Other examples, just to put out there, I was just in Rwanda 
last month and I went with a group of women to their field of 
beans, and they have been growing iron-fortified beans.
    This bean has doubled the amount yielded by a traditional 
bean. It cooks in half the time, which is very significant for 
people who are time-bound and needing to get fuel to cook all 
their food with, and has a very important source of iron.
    And so I think these seeds we are starting to disseminate 
throughout Rwanda will be very much game changing when one of 
these staple foods becomes something that is iron-fortified 
from the very beginning.
    So there are a couple of examples. I am happy to provide 
more as well.
    Ms. Bass. Great, and I appreciate that.
    I wanted to know some other input around Africa. You talked 
about how the African Union was really taking a leadership role 
and maybe you could be specific about what you mean.
    And then in that regard, also I wanted to know if you feel 
that there are examples of roles being played by the African 
regional economic communities regarding a more regional 
approach, especially with some of the smaller countries.
    Ms. Dunford. Yes. So the Malabo Commitments that came out 
of the 2014 African Union summit are very, very good if you 
read them and I think the African Union is looking to see how 
can we use CAADP to fuel the implementation or the attainment 
of these goals, which include things like reducing stunting and 
poverty, and tripling trade and the rest.
    And they're launching this campaign called Seize the 
Moment, talking of champions of change--like I said, really 
elevating country leaders who are doing the right thing on 
agriculture and malnutrition. And so we're looking forward to 
seeing how that campaign goes on to really elevate this issue, 
as Chairman Smith said.
    On the regional issue, I think the regional economic 
communities play a very, very important role. I'll take the 
example of Senegal and then I've also got an example of Togo I 
can give.
    ECOWAS, the regional economic body in west Africa, passed 
standard certifications of seed, but these were not adopted by 
Senegal for many, many years.
    So what you found were that private sector actors involved 
in seed production and multiplication were not able to operate 
freely in Senegal, and that the government was left with an 
inadequate system--really, trying to get seeds out to farmers 
and didn't have access to the latest seeds.
    So the Government of Senegal, as part of its New Alliance 
commitments, in 2013 passed a law that put Senegal in line with 
these regulations that had been passed and encouraged by the 
regional economic community, and therefore, allowed for private 
sector engagement in the seed sector.
    We helped to amplify this effort once the policy was right 
to get private sector actors out there producing and 
multiplying seeds that were able to reach many, many more 
farmers.
    As a result, NERICA rice now is readily available on the 
market. It's a rice that's drought resistant, drought tolerant, 
and also increases yield by up to 3 times.
    And so as part of our interventions working with private 
sector and this important policy change, now 180,000 farmers 
have access to this new technology that's really game changing.
    Also, the regional economic community put in place some 
regulations on how many border check points you could have--a 
maximum of 30 border check points--which is critically 
important.
    And we supported some businessmen in Togo who really went 
to the ministers and said, wait a minute, you aren't abiding by 
this regional economic rule and had an advocacy campaign to get 
people out to see all of the check points. And upon 
understanding what it took to get food from the north of Togo 
down to southern Togo--which was taking up to 4 days, they were 
aghast and put in place these changes and now it only takes 1 
day to go from the north.
    Ms. Bass. Wow. That's great. That's wonderful, because a 
problem throughout the continent----
    Ms. Dunford. Absolutely.
    Ms. Bass [continuing]. Is how to support intra-African 
trade.
    So one question that always comes up in my district 
whenever I talk about Feed the Future, and I brag about Feed 
the Future all the time, but I'm always questioned as to 
whether or not GMOs are a real big factor.
    Like when you were describing the beans and then also the 
rice, and so I wanted to know if you could comment on that.
    Ms. Dunford. So I think that genetically-engineered 
technology is one of many, many tools that we use along with 
conventional breeding, along with other techniques, to help 
farmers increase their productivity, that have to do with 
things like drip irrigation and the rest.
    We definitely follow countries' own laws, regulations, and 
wishes around genetically modified crops.
    Ms. Bass. Thank you. Thank you very much, Mr. Chair.
    Mr. Clawson. Thank you for coming. Thank you for your 
important work.
    Ms. Dunford. Thank you.
    Mr. Clawson. My firsthand experience tells me that for 
subsistence farmers to make meaningful progress, A, they have 
to have diversification, which you have spoken to, and B, they 
have to have credit.
    And we have been talking about microcredit since I was in 
college and I have got a lot of gray hair right now. And so I 
hear and read and see with my own eyes lots of really good 
programs, small programs in Southeast Asia, Africa, or 
wherever.
    But given the level of corruption for a lot or most of 
these governments, depending on how charitable we want to be, I 
don't know of any examples of countries that are struggling 
with hunger that also have widespread microcredit available for 
a market of struggling subsistence farmers. And without that, 
all of this is just anecdotal talk to me. I'm glad you're doing 
what you're doing.
    But if there's no microcredit in Africa or Southeast Asia 
at a broad level because there is so much corruption and there 
is not a developed private market for it, we are just blowing 
in the wind as far as I can tell.
    Am I wrong about what I'm saying or--I'd like you to tell 
me I'm wrong and there is a country that is struggling to make 
the jump and that has a large noncorrupt microcredit market for 
people that need it. Does that exist in the world?
    Ms. Dunford. So Mr. Clawson, thank you so much for your 
question and also before I go on I also want to thank you for 
your support of the Global Food Security Act.
    I think you hit on one of the key issues. As I said, all of 
this takes money, and money at different levels, to invest in 
public sector infrastructure and research but really to invest 
so that the small and medium enterprises can really move the 
agricultural system to have the kind of outcomes that we're 
looking for. So I think you are right. Credit is one of the 
critical components to enable us to reach our goals.
    I just wanted to provide another example from Senegal, 
where one of the problems with getting agricultural credit out 
there is that often you need a little bit bigger loans. The 
payback time needs to be a little longer sometimes because you 
have to wait for crop cycles and, frankly, it's a very risky 
investment for commercial lenders and so how do we get money 
out to these people?
    And I think that there have been some very creative ways 
over the years. One thing that we found in Senegal was to 
really look at how can we work with banks to have more creative 
means of collateral.
    One thing that we did with working with farmers in Senegal 
is that we basically took out iPads and found one or two people 
in the communities who actually were computer literate who 
could start recording production data from all of these farmers 
and after they built out a couple years of production data to 
be able to take that information to banks to say look, here's a 
record, it is not so risky to lend money to this farmer so he 
can purchase the inputs he needs to have a good harvest because 
here's his production record and that will give some guarantee.
    We also found in Uganda, where five youth who met at a Feed 
the Future innovation conference came together and started a 
mobile app company that provides information to farmers on best 
practices, but what it also does is these agents are then able 
to go out to farmers, collect information and create a credit 
profile for these farmers, who are often illiterate, to take to 
banks to get them to be able to loan money to farmers.
    So I think finding creative ways to get these funds out to 
farmers is critical.
    Mr. Clawson. And what country actually has a functioning 
microcredit market for these kind of folks? Does that exist?
    I love what you're telling me. But does that exist?
    Ms. Dunford. So I think you're right, there's----
    Mr. Clawson. I'm not saying that it doesn't exist. I'm 
asking you. You know, is there anywhere in Southeast Asia or 
Africa of a developing country that has a microcredit market 
that actually gives poor people an opportunity to expand their 
crops, without paying 20 percent a month?
    Ms. Dunford. I think that if you saw a system that worked 
very, very well you would see great reductions in poverty and 
hunger.
    In the countries where we work, there are instances of 
credit being available but we have not yet succeeded in making 
this something that's universal across the country.
    So I think you've hit on one of the key obstacles that 
we're tackling, moving forward.
    Mr. Smith. In your testimony, Dr. Dunford, you talk about 
the 11 different Federal agencies for the whole of government 
initiative. Of course, that language is reflected in our bill--
both the Senate and the House bill.
    And the list includes, of course, the Office of the United 
States Trade Representative and I am wondering--you know, there 
are--there are agencies that are all in and doing more--just 
because of what their past has been, especially your 
leadership, how helpful has that Office of the United States 
Trade Representative been?
    I've been in arguments with them over TPP and other issues. 
I think you have, too. But it seems to me that this is a golden 
opportunity. Just like the World Bank has done such 
extraordinary humanitarian work in a number of areas and most 
people, when they think of the World Bank, don't automatically 
think of that.
    So if you could maybe----
    Ms. Dunford. Thank you very much for this question. I think 
that working with USTR, they have been an incredibly important 
partner for us. Really expanding trade is one of the most 
important things--trade, not aid, is really going to lead to 
the future that we seek of a food-secure world.
    And so we've been partnering with USTR to build a capacity 
for Africans to increase their trade. We've also been working 
in other areas as well. So I think they are an incredibly 
important partner, mostly in the capacity building of key trade 
systems, and will continue to be moving forward.
    Mr. Smith. Can I ask you how well-coordinated is the effort 
to ensure that folic acid is included? As I think I know and I 
might have commented this to you when we met, I wrote three 
laws on combating autism including the Combating Autism Act.
    The Autism CARES Act just became law, and the most recent 
compilation of NIH research suggests three studies that say 
the--children on the spectrum can be reduced by 39 percent with 
400 micrograms of folic acid per day as long as it's 3 months 
before actual conception and no later than 1 or 2 months after 
conception.
    After that, it's helpful but not determinative and it also 
reduces spina bifida and other neurological problems.
    I'm wondering how well can you coordinate that to ensure 
that that's part of the package. In the year 2007, I was with 
my staff director for this subcommittee, in Lagos and I gave a 
speech on human trafficking.
    And a man came up and said well, what are you doing about 
autism in Nigeria. I said, nothing. We had dinner that night 
and it was a learning experience for me to find out how much 
unmet need there is in Nigeria and the rest of Africa.
    The WHO has said there are tens of millions of autistic 
children in Africa, largely underreported and not getting 
anything like early intervention. But folic acid could be not a 
panacea but part of the solution and I'm wondering how well 
that's integrated.
    Ms. Dunford. So I think our efforts are really focusing on 
helping people to grow and access the right types of food in 
order to have a balanced diet that would include all of the 
types of micronutrients that you're talking about, including 
folic acid.
    And I know our colleagues in the Bureau for Global Health 
work also in micronutrients and I will check with them and get 
back to you in a written answer on how we include folic acid 
specifically.
    Mr. Smith. That would be great, if you would.
    [The information referred to follows:]
 Written Response Received from Beth Dunford, Ph.D., to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith
    Folic acid deficiency is one of several micronutrient deficiencies 
that USAID nutrition programs address. Global Health programs support 
folic acid supplementation as part of maternal health interventions, 
plus any multi-micronutrient supplementation provided to children. Feed 
the Future works jointly with Global Health on improving food 
fortification capacity in East and West Africa, plus other countries, 
such as Afghanistan, where folic acid may be included as a fortificant. 
Folic acid may be supported as a fortificant, along with iron, vitamin 
A or iodine, depending on the food vehicle fortified and the specific 
country needs that address their population's nutritional deficiencies.

    Mr. Smith. And for the record, how much are we spending on 
Feed the Future in fiscal year 2016?
    Ms. Dunford. $895 million.
    Mr. Smith. Okay. Are there any other questions? 
Unfortunately, we are being called over for a vote.
    Ms. Dunford. Yes, of course. Of course.
    Mr. Smith. And I apologize for that.
    Ms. Dunford. That's okay.
    Mr. Smith. We are planning a meeting and I would hope you 
and Mr. Markanday, if you would consider this as well--we are 
going to invite the Ambassadors from Africa and other 
countries, particularly developing countries, to a forum on 
Feed the Future.
    We are hoping that Roger Thurow--we have asked him already 
and he seemed very interested to come and speak about the all-
important first 1,000 days.
    But, of course, what follows is important as well.
    Ms. Dunford. Right.
    Mr. Smith. But it would be a great opportunity for all of 
us to encourage the Ambassadors to be in contact with the home 
front and home office and health minister to say okay, we've 
all signed up, scaling up, but what are we really doing--are we 
really making this a priority?
    Because the intentions are great in many capitals but 
competing challenges sometimes crowd out this highly 
efficacious effort to help women and children.
    So if you would at least consider being part of that panel 
it would be very, very helpful.
    Ms. Dunford. Absolutely. I would be honored.
    Mr. Smith. As soon as we get a date we will get to you. We 
are trying to find out when the African Ambassadors especially 
would be most available. But we're also--we want the other 
Ambassadors to be there as well.
    I was actually in Guatemala the day they signed up with us 
to work on the first 1,000 days, and I met with the Speaker 
that day and was--you know, he was all in and very excited 
about what it would do for stunting in Guatemala.
    So is there anything else you would like to add? And I have 
more questions but we are almost out of time because of the 
vote.
    Ms. Dunford. Well, I just want to thank you so much. It's 
been an honor to be able to testify before you and your 
committee today. I really appreciate your interest and support 
in this effort.
    I wanted to just give one more example of really talking 
about the importance of women in Feed the Future and the 
groundbreaking work of the Women's Empowerment in Agriculture 
Index that has really helped us to--for the first time--measure 
women's empowerment and understand where and why empowerment 
goes up and down.
    This is an area where Bangladesh, when we did the first 
round of WEAI Surveys scored the lowest of all our focus 
countries on this index. And it led our mission and also the 
country of Bangladesh to take this seriously and say, ``What 
can we do to increase women's empowerment?'' The WEAI found 
that public speaking was one of the key issues and Bangladesh 
really worked to ensure that women had opportunities to be 
trainers in agricultural extension and also looked at how they 
had problems with control over their production and really 
understanding that actually fishing was one of the biggest 
smallholder activities and the big nets being used were so big 
that men had to actually harvest the fish, which led women to 
be dependent on men to harvest the fish for their own 
consumption and also for sale.
    And so we've worked to develop a smaller net that more 
women can use so they can then control the efforts of their 
production.
    So you've seen a big improvement of women's empowerment in 
Bangladesh and just showing how measurement combined with 
government leadership and our efforts can quickly move the dial 
on an issue that has been so pervasive for decades.
    Mr. Smith. My colleague, Mr. Clawson, raised some, I think, 
interesting points about microcredit lending. I have actually 
authored two laws on microcredit lending and the biggest 
takeaway I had about all of that was how well women were able 
to take modest amounts of money and almost like the loaves and 
fishes multiply the effect.
    Fed not only their families but hired people, paid back the 
loan so that the revolving funds were back into the kitty to 
help other people.
    But I'm wondering, maybe as a question, do you find that 
there is a good interface between Feed the Future initiatives, 
private sector, NGOs, FAO, of course, and yourselves and the 
micro lending initiatives as well?
    Ms. Dunford. Absolutely. That is one of things we are 
really trying to do. I think Mr. Clawson hit on a key issue 
that is a hard nut to crack and we are really working toward 
getting there.
    So yes, that is well coordinated. If I could say one more 
point, I started out my career in international development at 
USAID as a young officer in Ethiopia back in 2002, 2003 where 
there was a famine--14 million people on the verge of 
starvation. It was my first experience with anything like 
this--very, very formative.
    That year, I was working on providing food assistance to 
those people. The USAID Mission in Ethiopia that year spent $5 
million on agricultural development and nutrition, the type of 
work we are talking about today, and spent $500 million on 
handing out food to people.
    And while that's a very, very important effort, I just 
really applaud your support for us to actually reverse that, to 
spend more money actually on building the long-term capacity 
that's going to help people pull themselves out of poverty and 
pull themselves out of hunger.
    I really appreciate your efforts.
    Mr. Smith. Okay. But again, we appreciate your efforts 
because you guys are walking point and doing a tremendous job. 
Thank you for your personal leadership, expertise, and 
determination.
    The hearing is adjourned.
    [Whereupon, at 3:04 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------  
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
